HHS/OIG, Audit -"Review of Carefirst of Maryland Unfunded Pension Costs,"(A-07-03-03039)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of CareFirst of Maryland Unfunded Pension Costs," (A-07-03-03039)
May 2, 2003
Complete
Text of Report is available in PDF format (783 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our review were to:   (1) determine if pension
costs allocable to the Medicare contracts for plan years 1992 through 1995
were funded in accordance with the Federal Acquisition Regulations (FAR); (2)
determine if the accumulated unfunded pension costs identified in our prior
review have been properly accounted for; and (3) identify any unallowable components
of the accumulated unfunded pension costs.  We found that CareFirst funded
the pension costs allocable to the Medicare contracts for plan years 1992 through
1995 in accordance with FAR.  However, CareFirst did not properly account
for the accumulated unfunded pension costs that were identified in our prior
review.  CareFirst should have brought the accumulated unfunded pension
costs forward, with interest, to January 1, 1996.